No. 19-29
In the

Supreme Court of the United States
__________________
TROY BEEMER,
Petitioner,
v.
UNIVERSITY OF SOUTHERN CALIFORNIA, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________
REPLY BRIEF FOR PETITIONER
__________________

Eric M. Schiffer
Counsel of Record
SCHIFFER & BUUS, APC
959 South Coast Drive
Suite 385
Costa Mesa, CA 92626
(949) 825-6140
eschiffer@schifferbuus.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
REPLY BRIEF FOR PETITIONER . . . . . . . . . . . . . 1
I.

THE LOWER COURTS SHOULD BE
PROPERLY GUIDED BY CLEAR
PARAMETERS OF WHAT CONSTITUTES
AN OTHERWISE QUALIFIED STUDENT
UNDER A SECTION 504 ANALYSIS . . . . . . 1

II.

THE PETITION PRESENTS A QUESTION
OF NATIONAL IMPORTANCE . . . . . . . . . . . 3

III.

THIS CASE PRESENTS THE PROPER
VEHICLE THROUGH WHICH THIS
COURT CAN ADDRESS THE ISSUE OF
UNFETTERED DEFERENCE TO
ACADEMIC INSTITUTIONS ON THE
SECTION 504 “OTHERWISE QUALIFIED”
ISSUE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ii
TABLE OF AUTHORITIES
CASES
Alexander v. Choate,
469 U.S. 287 (1985). . . . . . . . . . . . . . . . . . . . . . 1, 2
Doherty v. Southern College of Optometry,
862 F.2d 570 (6th Cir. 1988). . . . . . . . . . . . . . . . . 2
Lexmark Int’l, Inc. v. Static Control Components,
572 U.S. 118 (2014). . . . . . . . . . . . . . . . . . . . . . 3, 4
McGregor v. Louisiana State Univ. Bd. of Sup’rs,
3 F.3d 850 (5th Cir. 1993). . . . . . . . . . . . . . . . . . . 2
Santa Fe Independent School District v. Doe,
530 U.S. 290 (2000). . . . . . . . . . . . . . . . . . . . . . . . 3
Southeastern Community College v. Davis,
442 U.S. 397 (1979). . . . . . . . . . . . . . . . . . . . . . 1, 2
Tcherepnin v. Knight,
389 U.S. 332 (1967). . . . . . . . . . . . . . . . . . . . . . . . 4
Williamson v. Mazda Motor of Am., Inc.,
562 U.S. 323 (2011). . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTES AND REGULATIONS
34 C.F.R. § 104.44 . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
42 U.S.C. § 12101(b)(3) . . . . . . . . . . . . . . . . . . . . . . . 4
RULE
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
REPLY BRIEF FOR PETITIONER
I.

THE LOWER COURTS SHOULD BE
P R OP ER L Y GUIDED B Y C LE A R
PARAMETERS OF WHAT CONSTITUTES
AN OTHERWISE QUALIFIED STUDENT
UNDER A SECTION 504 ANALYSIS

Petitioner Troy Beemer (“Beemer” or “Petitioner”)
requests that this Court offer much needed guidance as
to what constitutes a substantial modification or a
fundamental alteration to an academic program for
purposes of analyzing whether a disabled student is
“otherwise qualified” for an academic program under
section 504 of the Rehabilitation Act (“Section 504”).
This Court made it clear in Southeastern Community
College v. Davis, 442 U.S. 397 (1979) that Section 504
does not mandate that an educational institution
“lower or effect substantial modifications of standards
to accommodate a handicapped person,” assuming such
standards are reasonable. Id. at 423. Indeed, this rule
was crafted in an effort to balance the institution’s
right to decide the basic requirements pertinent to its
program and the handicapped student’s right to
participate. Alexander v. Choate, 469 U.S. 287, 300
(1985). However (and contrary to the University of
Southern California’s (“USC”) position at Resp. Opp. at
p. 6 that “in the four decades following Davis, the lower
courts have synthesized this Court’s guidance. . . and
have articulated the same standard for determining
when a student is ‘otherwise qualified’”), guidance for
the lower courts on this issue is warranted.

2
Indeed, many lower courts have viewed the
“otherwise qualified” standard of Section 504 as less
than clear, thereby obfuscating the “line” between a
lawful refusal to accommodate and illegal
discrimination. See McGregor v. Louisiana State Univ.
Bd. of Sup’rs, 3 F.3d 850, 858–59 (5th Cir. 1993) (“the
extent of an institution’s affirmative duties to
accommodate handicapped individuals is far from
clear. . .[t]he best that opinions following Davis have
been able to state definitively is that an educational
institution must make ‘reasonable,’ but not
‘fundamental’ or ‘substantial’ modifications to
accommodate the handicapped”) (emphasis added). See
also Doherty v. Southern College of Optometry, 862 F.2d
570, 575 (6th Cir. 1988) (“[t]he question after Alexander
is the rather mushy one of whether some ‘reasonable
accommodation’ is available to satisfy the legitimate
interests of both the grantee and the handicapped
person) (emphasis added). As such, it is apparent that
the concern this Court had when deciding Davis has
come to fruition, as this Court noted that “we do not
suggest that the line between a lawful refusal to extend
affirmative action and illegal discrimination against
handicapped persons always will be clear. It is possible
to envision situations where an insistence on
continuing past requirements and practices might
arbitrarily deprive genuinely qualified handicapped
persons of the opportunity to participate in a covered
program. . . Thus, situations may arise where a refusal
to modify an existing program might become
unreasonable and discriminatory.” Davis at 412-413.

3
The Ninth Circuit’s decision affirming the district
court’s opinion below deemed, as a matter of law, that
the courts must defer to USC’s opinion on the Section
504 definitional analysis of “otherwise qualified,”
thereby allowing the educational institution to be the
sole judge of whether it complied with the law on
effective accommodations.1
While deference to
academic decisions is the law, unfettered deference
should not be the standard. As such, this Section 504
“deference rule” that has been carved out for
educational institutions warrants this Court’s review.
II.

THE PETITION PRESENTS A QUESTION
OF NATIONAL IMPORTANCE

USC claims that the absence of a circuit split on the
issue of deference to academic institutions for purposes
of the “otherwise qualified” analysis under Section 504
does not warrant this Court’s intervention. (See Resp.
Opp. at p. 15). However, merely because the lower
courts agree upon (and pay lip service to) the standard
to be applied does not mean that the lower courts have
been consistently applying those standards. Indeed,
this Court grants certiorari (even absent circuit splits)
to review lower court decisions that decide important
questions of federal law in a way that is inconsistent
with this Court’s precedent. See, e.g., Lexmark Int’l,

1

Indeed, other areas of educational influence have not enjoyed
such unfettered deference. See, e.g. Santa Fe Independent School
District v. Doe, 530 U.S. 290 (2000) (recognizing and reaffirming
one of the fundamental duties of the federal court system as
ensuring that the laws, statutes, and Constitutional protections
are being carried out in school systems- in this instance for
student-led invocations under the Establishment Clause).

4
Inc. v. Static Control Components, 572 U.S. 118, 125
(2014) (granting certiorari to decide the appropriate
analytical framework for determining a party’s
standing to maintain an action for false advertising
under the Lanham Act); Tcherepnin v. Knight, 389
U.S. 332, 333 (1967) (addressing treatment of
“withdrawable capital shares” absent any apparent
circuit split given importance of properly defining scope
of securities laws). See also Supreme Court Rule 10(c)
(stating as a criterion for granting review whether the
“United States court of appeals has decided an
important question of federal law that has not been,
but should be, settled by this Court, or has decided an
important federal question in a way that conflicts with
relevant decisions of this Court”).
Since the purpose of the ADA in 42 U.S.C.
§12101(b)(3) is “to ensure that the Federal Government
plays a central role in enforcing the standards
established in this chapter on behalf of individuals with
disabilities,” and since the lower courts’ decisions have
effectively eroded away section 504 protections by
deferring such decisions exclusively to the educational
institutes, review is warranted. The absence of a
circuit split on the issue does not render the issue
beyond reproach, nor does it place the issue outside the
reach of this Court’s guidance. See Williamson v.
Mazda Motor of Am., Inc., 562 U.S. 323, 327-28 (2011)
(noting that several lower courts had ruled a particular
way and reversing them all).

5
III.

THIS CASE PRESENTS THE PROPER
VEHICLE THROUGH WHICH THIS COURT
CAN ADDR E S S THE ISSUE OF
UNFETTERED DEFERENCE TO ACADEMIC
INSTITUTIONS ON THE SECTION 504
“OTHERWISE QUALIFIED” ISSUE

USC claims that the outcome of this case would not
be changed even if this Court was to take up the
“otherwise qualified” issue under section 504 because
the lower courts made a finding that Petitioner was not
“dismissed” from the program (See Resp. Opp. at p. 18).
As a preliminary matter, that issue has not been
adjudicated, as the case progressed no farther than
summary judgment.2 And even then, both lower courts
merely deferred to USC’s decision that Petitioner was
not otherwise qualified to remain in the program
because of an automobile accident that placed
restrictions on the timing of completing the program
and the place of completing the program- and not on
the substance of the program, or Beemer’s ability to

2

Beemer submitted evidence that he did not leave the program
voluntarily and USC submitted evidence that it did not ask
Beemer to leave the program. And yet after suffering his injuries,
Beemer found himself not enrolled in USC’s CRNA program.

6
perform under its guidelines.3 Indeed, the deference
afforded to USC’s decision that Beemer was not
“otherwise qualified” to remain in the CRNA program
is highly problematic in light of the Department of
Education’s regulations, which require a qualified
academic institution to make “such modifications to its
academic requirements as are necessary to ensure that
such requirements do not discriminate. . . on the basis
of handicap, against a qualified handicapped applicant
or student. . . [including] changes in the length of time
permitted for the completion of degree requirements,
substitution of specific courses required for the
completion of degree requirements, and adaption of the
manner in which specific courses are conducted.” See
34 C.F.R. section 104.44.

3

USC tries to draw a distinction between Beemer being qualified
for admission as opposed to being qualified for retention (See Resp.
Opp. At p. 8, fn 1). This is a distinction without a difference.
Indeed, the record below reveals that any alleged issues with
Beemer’s performance in the CRNA program were directly related
to the physical injuries he suffered in his automobile accident (i.e.
being unable to physically go to certain hospitals, and needing
additional time to prepare for cases) after beginning the CRNA
program, and not because of some cognitive learning disability or
malady that made his very participation in the CRNA program
untenable. The record further reveals Beemer’s history of
performing well in the CRNA program, as well as prior success in
USC’s Global Medicine program, from which he earned a Master’s
degree. Contrary to USC’s assertions, there was no evidence
proffered that Beemer could not perform the essential functions of
the program with or without accommodation.

7
Here, the undisputed record shows that the Council
on Accreditation of Nurse Anesthesia Programs
required that any accredited program be at least 24
months long or the part-time equivalent of a 24-month
program, but had no maximum program time.
Moreover, the Council required that a CRNA program
curriculum “prepare[ ] the student for the full scope of
current practice in a variety of work settings and
require[ ] a minimum of 550 clinical cases,” including
a specific number of cases in various categories, but
imposed no maximum time as to when these clinical
cases must be completed, and no rules as to where the
cases must be worked. The Council’s handbook also
allowed for “deferral of graduation” if there are
“extenuating circumstances.” Beemer could have
succeeded in the CRNA program with reasonable
accommodations to his automobile injuries. USC failed
to do so, and instead, claimed he was not otherwise
qualified to remain in the CRNA program. This unjust
result begs the question of what constitutes a
substantial modification or a fundamental alteration to
an academic program for purposes of analyzing
whether a disabled student is “otherwise qualified” for
an academic program under section 504.

8
CONCLUSION
Petitioner Troy Beemer respectfully requests that
this court grant certiorari to ensure nationwide
uniformity on this important and recurring issue of
unfettered deference to educational institutions in the
context of Section 504.
Respectfully submitted
Eric M. Schiffer
Counsel of Record
SCHIFFER & BUUS, APC
959 South Coast Drive, Suite 385
Costa Mesa, CA 92626
(949) 825-6140
eschiffer@schifferbuus.com
Counsel for Petitioner

